Audit Report-Executive Summary



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services
Grants to the Durango Police Department
Durango, Colorado
GR-80-01-009March 19, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the grants awarded by the Office of Community Oriented Policing Services to the Durango, Colorado, Police Department.  The purpose of the grants is to enhance community policing.  The police department was awarded a total of $624,889 to hire seven full-time and one part-time new officers.

	We reviewed the police department's compliance with seven essential grant conditions.  The police department complied with grant requirements with respect to not budgeting for decreases in locally funded police officers, hiring police officers, ensuring local matching funds were not previously budgeted for law enforcement, reimbursement requests, retention planning, and performing community policing activities.  However, Financial Status Reports were not always submitted or were not submitted timely.

	These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.